WAIVER

Supreme Court of the United States

No. 19-497
The Inclusive Communities Project, Inc. v. Lincoln Property Company, et al.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Q Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

———lincaln Propecty Company __

x Iam a member of the Bar of the Supreme Court of the United States.

 

© Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bar member.
Signature

Date: 10/28 ]204
(Type or print) Name. x Cc hac les "G had" Baruch
Mr.

OMs. O Mrs. O Miss

 

 

Firm.

e
Address 12.37% Merit Drive , Gute 880

City & state Dallas TX Zip _#S251_
Phone _2441Fut-6260

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Ce: Mrchoel Dare |

Darvel ¢ Baskara PC

3,301 Elu Street

Dallas 1 #5226

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 
Supreme Court of the United States

The Inclusive Communities Project, Inc.
(Petitioner)

v. No. 19-497

Lincoln Property Company, et al.
(Respondent)

To __ Jennifer Owen, Lincoln Property Company Counsel for Respondent:

NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on October 14, 2019, and placed on the docket October 17, 2019. Pursuant to Rule 16.3,
the due date for a brief in opposition is Monday, November 18, 2019. If the due date is a
Saturday, Sunday, or federal legal holiday, the brief is due on the next day that is not a
Saturday, Sunday or federal legal holiday.

Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court’s electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at

Ww rt.gov/filingan lectronicfiling.aspx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.

Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Mr. Michael M. Daniel
Daniel & Beshara, P.C.
3301 Elm Street
Dallas, TX 75226
214-939-9230

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court,
